Supreme Court, U.S.
FILED

WAIVER

AUG 2 5 .202'1

Supreme Court of the United States

OFFICE OF THE CLERK

No. 21-118
v.

Apple Inc.
(Petitioner)

Optis Cellular Technology, LLC, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
M I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature
8/24/2021
Date:
(Type or print) Name

H. Annita Zhong
0 Mr.

Firm

EN Ms.

0 Mrs.

0 Miss

Irell & Manella LLP

Address 1800 Avenue of the Star, #900
City & State
Phone

Los Angeles; California

310-203-7183

Zip

90067

Email hzhong@irell.com

A COPY' OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc:

Catherine M. A. Carroll
Mark D. Selwyn

RECEIVED
AUG 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

